b
No.

Stifle

Supreme Court of tlje ®mteb H>tate£
♦

Petitioner,

v.
Virginia Board Of Medicine
Respondent.
♦
r-'

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals

For The Fourth Circuit
♦ -

PETITION FOR A WRIT OF CERTIORARI
♦

Pro Sej

~ z: siz — s:— ~ “:=zz

?

.I

i

QUESTION PRESENTED
<^f) Petitioner;
to

with Decades of Practice Experience,
in Sealed hearing

is
>) pursuant to Sealed

nder Seal court

ivestigative'

hat is still current and active today,
iMHBMM&and successfully

passed all required certification medical licensing exams in 2017, successfully completing all required
Reentry medical Practice 2017-2019, successfully completing required Continuous Medical Education
iublic hearing j
iis
Credits,
consider
f, denying all proofs of medical Competency and violating his constitutional
rights putting him in position to obstruct justice ,violate the laws and criminal proceedings in state
proceedings that otherwise allows to conductl
. Petitioner seeking justice, filed suit pursuant to 42 U.S.C. § 1983
to redress this irrevocable harm. Creating an acknowledged and irreconcilable split with the United
States Court of Appeals for the 4th Circuit, and also splitting with the Ninth & Second Circuit, both of
which have held that federal courts should not abstain from hearing constitutional challenges seeking
Justice, Fairness in Due process, freedom of Harm and at least the minimum of being fairly heard in a
'ithout obstruction of justice
state proceeding
protection filings, and fairness in reviewing his application without prejudice . The Seventh Circuit held
that federal courts should abstain from some constitutional rights hearing such as First Amendment
claims of this type pursuant to Younger v. Harris, 401 U.S. 37 (1971) and its progeny. The Seventh
Circuit's decision was grounded not in any clearly defined category of YoUnger cases in whicfi this
Honorable Court has stated abstention is apprqg.fj.ate, but rather in general principles of "equity, comity,
and federalism." The gupcti^presentfdJsthus: Whether Younger and its progeny permit federal courts
to abstain. on the basis of general principles of comity and federalism, from hearing Constitutional
Amendment challenges that seek Justice. Fair Due Process against biased,unjust,unfair, &
unconstitutional state agency proceeding?

W) IS IT POSSIBLE TO A US CITIZEN TO PRESERVE HIS CONSTITUTIONAL GRANTED
RIGHT?
^Hearings ,nol only once but twice, is more
pf handling Plaintiff^
The prior
than enough evidence of why Plaintiff is seeking ^
_ ^f his constitutional granted rights .Fifth
amendment protection,& Fair due process : The Board is asking a Federal court to simply dismiss
ill have his fair chance and will be given all the opportunity to be
Plaintiff claims just because!
heard and then if he does not like it then he can go to the same state courts to be heard well let us
board then let us examine this
assume that plaintiff is going again _
future alleged anticipated lair hearing that the board will allow Plaintiff to have and to see if that will
give even any chance of a successful due process hearing1 :

>rder status of the

Itad stated in his'

1. First :As The Honorable Judgei

,to the government ,in both civil & criminal prosecution

t (UNDER

SEA Lift
2.Second : As Plaintiff will have the burden on him to show his eligibility to

3.Third : As this means that the Plaintiff has to {" Under Oath in a state agency public hearing"} to
kthat Granted him
expose Federal court order sealed.filings

4. Fourth : As. This means that plaintiff will be in violation of both Federal and state laws in terms of
in current active
obstruction of justice
Ibut interfering these ongoing
, not only
federal investigations
livision In
i bo;
investigations MflM
l& others
ThctfHBi^S
[hearing in a closed
Regardless how much plaintiff will try showing eligibility in any fulu:
hearing as permitted under V A statue f " Virginia statue rules VA Code 2.2-3711 "Closed Meeting
/ould be
if (hi
nd when tin
authorised for certain purposes that include'l
The Board simply will insist on conducting an open public hearing where when asked as
arings :(Board Hearing Exhibit 16) where in
Rearing and
twice happened again in
public a Board Member insisted asking Plaintiff;
,?" or •’ do

kwhen the plea deal
you have

by

sked

, or did Honorable!

ai

" violating the Board's own investigator interview with The'
how did thi

lonorable
pealed hearing,

as!

.in

Then again the board not seeing the whole facts Plaintiff is trying to show
ind not to b

will simply base in error that plaintiffdj

what competency exams SPEX or peer medical professional assessments or recommendations CPEP.
As A matter of fact The counsel for the defendant is stating again now in here motion to dismiss most
recent filing date
the1

.order that discloses

,even after The
claimed that hi

t'page 9 ,line 5

administrative hearing in violation of the'
whereas clearly the facts had shown the opposite t

based on

So here is the Challenging question raised in this claim:
HOW CAN THE BOARD or it's counsel THAT IS NOT ALLOWIN'
or not withou
if it
hearing to occur, is to come now to judgei
MHwccur
, not forgetting
knowing what This Plaintiff!
public hearing?
lon't matter.
hill
iv
Plaintiffs!
ii
PARTIES AND RULE 29.6 STATEMENT
Petitioner, Is a United States Citizen without any incorporation .
Respondent, is a State agency under the Department Of Health Profession , sued in It's official capacity
pursuant to 42 U.$;C.‘§ 1983.
iii
Page

TABLE OF CONTENTS
QUESTION PRESENTED

ii

PARTIES AND RULE 29.6 STATEMENT ...

......iii

TABLE OF AUTHORITIES
petitionVor

.-.1

WRIT OF CERTIORARI

2

OPINIONS BELOW

..,.2

JURISDICTION

.... 2

STATUTORY PROVISIONS INVOLVED...... .
A',

STATEMENT OF THE CASE
A. Background............ ..........................................
B. The District Court Enjoins The Agency's Actions
C. The Court Of Appeals' Decision
REASONS FOR GRANTING THE PETITION

2
3
23
... 30
.......30

I. The Courts of Appeals Are Divided Over Whether Federal Courts Should
Abstain From Hearing Constitutional Amendment Claims Of This Type ..
A. The Decision Below Conflicts With Decisions From The Second And

30

30

Ninth Circuits

34

II. The Decision Below Is Wrong
A. The Decision Below Expands The Circumstances In Which A Federal Court

4!'

Should Abstain Beyond The Narrow Exceptions This Court Has Articulated..34
• gifs. -

B. The Decision Below Turns On Its Head The Presumption That Courts Must Exercise
35

Jurisdiction When They Have It

36

III. The Question Presented Is Important And Should Be Decided In This Case

39

CONCLUSION
APPENDIX

Appendix A :The opinion of the United States Court of Appeals for the Fourth Circuit is reproduced at
Pet.App.1-6
Appendix B :The order of the U.S. District Court1

js reproduced at

Pet.App.7~ 18.
Appendix C: Memorandum Opinion and Order, United States District Court for the Northern District of
Illinois, Courthouse News Serv. v. Brown, No. l:17-cv-07933 (Jan. 8, 2018)...... ............

.

judgment in a Civil Case, United States District Court for the Northern District of Illinois, Courthouse
News Serv. v. Brown, No. l:17-cv*07933 (Dec. 7, 2018).................................................. ...............
sprint Communication Inc. v. Jacobs et al (No. 12-815) ,8th Circuit US Court Of Appeals.
Abdalla Nimr v. Litchfield (Feb,21,2013), 6th Circuit US Court Of Appeals.
Appendix D

Relevant Statutes.......
Page

TABLEOF AUTHORITIES.
Alabama Pub. Serv. Common v. Southern Ry. Co., 341 U.S. 341(1951).....

37

Allen v. McCurry, 449 U.S. 90 (1980)

37

Ankenbrahdt v. Richards, 504 U.S. 689 (1992)

5

Burford v. Sun Oil Co., 319 U.S. 315 (1943)

...34

Christian Legal Soc'y v. Walker, 453 F.3d 853 (7th Cir. 2006)

.......6

Cohens v. Virginia, 19 U.S. 264 (1821)....... .........................

.36

Colorado River Water Conservation Dist. v, United States, 424 U.S. 800 (1976).......... .......

County of Allegheny v. Frank Mashuda Co., 360 U.S. 185 (1959)....................•......... ........
Courthouse News Serv. v. Planet, 750 F,3d 776 (9th Cir, 2014)..... .................... .............

,.,...36
37
32

Glassroth v. Roy Moore, 229 F. Supp. 2d 1290 (M.D. Ala. 2002)........... ..............................

,37

Globe Newspaper Co. v. Superior Court for Cty. of Norfolk, 457 U.S. 596 (1982)...... ..... ...

39

Grove Fresh Distribs., Inc. v. Everfresh Juice Co., 24 F.3d 893 (7th Cir. 1994)..................-

6

Hartford Courant Co. v. Pellegrino, 380 F,3d 83 (2d Cir. 2004).............. ................... .... >••••

32

McNeese v. Board of Educ. forCmty. Unit Sch. Dist. 187, Cahokia, III., 373 U.S, 668 (1963)

36

Mills v. Alabama, 384 U.S, 214 (1966)

38

Nebraska Press Ass'nv. Stuart, 423 U.S. 1327 (1975).................................... ...........

38

Nebraska Press Ass'n v. Stuart, 427 U.S. 539 (1976)........ ................................... *....

38

New Orleans Pub. Serv,, Inc. v. Council of City of New Orleans, 491 U.S. 350 (1989)

36

Nixon v, Warner Commc'ns, Inc., 435 U.S. 589 (1978)...................... -........•■•••........

38

O'Shea v. Littleton, 414 U.S. 488 (1974)......... ..........................................................

34

Railroad Comm'nv. Pullman Co., 312 U.S. 496 (1941).....

&
Richmond Newspapers, Inc, v. Virginia, 448 U.S. 5^fe (1980) ^2..........

Rizzo v. Goode, 423 U.S. 362 (1976)..........................
SKS & Assocs., Inc. v. Dart, 619 F,3d 674 (7th Cir. 2010).............

.........33

39
36
9

....

1

Younger v, Harris, 401 U.S. 37 (1971).................................... •••

1,6

Under Patsy v. Board of Regents of Florida, 457 U, .$, 496,......

.4

Huffman v. Pursue Lid. 420 U S. 592,603 (1975).....................-

........... 8

Sprint Commc'ns, Inc. v. Jacobs, 571 U.S. 69 (2013)....... .

In Steffel v. Thompson, 415 U S. 452 (1974)

12

Samuels v. MackeII. 422 U. S. 348-352..... .

.6

Gibson v. Berry hi II, 411 U.S. 564 (1973)..

S

Schmidt v. Lcssard. 414 U.S. 473 (1974).,

5

Hicks v. Miranda. 422 U.S. 332 (1975

5

Salem Inn Inc. V. Frank .364 .F. Supp. 478 (E.D.N.Y.1973)
Doran v. Salem Inn. Inc. 422 U.S. 922 (1975)

.,5
6

Johnston-Willis, Ltd. v. Keniey, 6 Va. App. at 242,369 S.£.2d at 7

6

Aegis Waste Solutions v.Concerned'Taxpayers, 261 Va. 395,404,544 S,E.2d 660, 665 (2001) (quoting
Virginia Real Estate Comm'n v. Bias. 226 Va. 264. 269, 308 S.E.2d 123, 125 (1983) ("Bias")) (emphasis
.....6
in original),).
Conley v. Gibson, 355 U.S. 41 (1957)

,7

355 U.S. at 45-46. In Bell Atlantic Corporation v. Twombly. 55 U.S. 544 (2007).

7

Ashcroft v*. Iqbal, 556 U.S. 662 (2009)

.7

Butt v. United Brotherhood of Carpenters & Joiners of America, No. 09-4285,2010 WL 2080034 (E.D.
,7
Pa. May 19, (2010)...................................................... ..................... ........
If Dunn v. Castro. 621 F.3dl 196,1205 n.6....................................... .

.7

Tel labs, Inc. v. Makor Issues & Rights, Ltd., 551 US. 308, 322 (2007))

.7

Magulta v. Samples. 375 F.3d 1269, 1274-75 (11th Cir. 2004).............

.7

5 Wright & Miller, Federal Practice and Procedure $ 1286 (3d ed. 2004).

.7

5B Wright & Miller, Federal Practice and Procedure § 1357 (3d ed.2004).......

7

Shaun McCuteheon et al., Plaintiffs v. Federal Election Commission, Civ. No.
1:12-cv-01034-JEB-JRB-RLW

.,8

Rooker v. Fidelity Trust Co.. 263 U S. 413 (1923).................................

8
8

District of Columbia Court of Appeals v. Feldman, 460 U.S. 462 (1983)

Holloway v. Pagan River Dockside Seafood, Inc., 669 F.3d 448,452 (4th Cir. 2012).......................15
Evans v. B.F. Perkins Co., a Div. ofStandee hit'I Corp., 166 F.3d 642,647 (4th Cir. 1999)... ........ 15
Butt v. United Brotherhood of Carpenters & Joiners of America, No. 09-4285,2010 WL 2080034
(E.D. Pa. May 19,2010)....... ............................. ................. .............................................. ................. .7
Adams v. Bain. 697 F.2d 121.3, 1219 (4th Cir. 1982)
Doe v. County of Centre, PA, 242 F.3d 437,453 (3d. Cir. 2001)..............

16

....... 19

Rodgers-Durgin v. De La Vina, 199 F.3d 1037, 1044 (9th Cir. 1999) (quoting Texas v. United States
,523 U.S. 296 (.1998))

20

Shotz v. Cates, 256F.3d 1077, 1081 (I ith Cir.2001) (citations omitted)

20

Armstrong World Indus., fnc. v. Adams, 961 F.2d 405.422 (3d Cir 1992.....

20

Malaina Makua v.Rumsfeld, 136 F,Supp.2d 1155, M61 (D.Haw.2001),.....

20

Travelers Ins. Co. v. Obusek, 72 F.3d 1.148, 1154 (3d Cir. 1.995}............. -

20

Salvation Army v. Dep’l of Craty, Affairs, 919 F.2d 183,192 (3d Cir.1990)).

,21

Shaun McCotcheon et al,, Plaintiffs v. Federal Election Commission, Civ. No. 1:12-cv-0K)34-JEB-3RBRLW.... .................................................. *...........................................................

8

Virginia Real Estate Comm'ttv. Bias, 226 Va. 264, 269, 308 S.E.2d 123, 125 (1983)

,...,25

Evans v. Cordray (6th Cir., Case No. 09-3998),........ ....................... *...................

15

Philadelphia Entertainment & Dev. Partners, 17-1954, 2018 WL 358216 (3d Cii. Jan. 11,20.18)....,—27
Gauthier v. Continental Diving Serv. Inc.. 831 F.2d 559, 561 (5th Cir. 1987)..........

.......... 29

Babb v. Capital source, Inc. 588 Fed. Appx. 66 (2d Cir. 2015) ............... ..............

.29

Kamilewicz v.Bank of Boston Corp. 100 F3d 1348 (7th Cir 1.996),........... ........... ••••

.29

Skinner v. Switxer ,562 U.S. 521 (2011)..................... ........-■.......... ............

.29

PI v. Wagner 603 F.3d 1182 (10th Cir. 2010)...................................... .........

29

Davis v. Bayless 70 F.3d 367 (5th Cir. 1995)........—...... ..............................

.29

Cross v. SmithKline Beecham Clinical Labs.,Ine. 1.08 F.supp.2nd 130,135-136
(D. Conn. 20(H)).

.29

Pennzoil Co v. Texaco 481 U.S 1,25(1987)

29

In re Sun Valley Foods Co. 801 F.2d 186 (6th Cir. 1986)

29

STATUTES
jfiftlj Smenbment <©t GBje IHniteb States! Consstitatton
28

§1254(1)

42 «,&,£.§ 1983

PETITION FOR WRIT OF CERTIORARI
Federal courts bear responsibility to resolve cases and controversies over which they have jurisdiction
and should abstain from hearing such cases only in the narrowest of circumstances. Thus, when a
federal court decides to abstain on the basis of this Court's decision in Younger v, Harris, 401 U.S. 37
(1971), it may do so only pursuant to three limited exceptions, which preclude federal intrusion into (1)

ongoing state criminal proceedings; (2) certain civil enforcement proceedings; and (3) pending civil
proceedings involving certain orders uniquely in furtherance of a state court's ability to perform its
judicial functions. See Sprint Commc'ns, Inc. v. Jacobs, 571 U.S. 69, 78 (2013). Comity, and a respect for
the concurrent role of state courts in our constitutional system, is the chief rationale for these narrow
exceptions, but is not itself an independent reason to abstain. The decision below—which holds that
federal courts should abstain from hearing constitutional claims brought against state agency
proceeding that denied Petitioner A Fair Due process proceeding Jeopardizing justice endangering
Petitioner life , exposing sealed court filings and ongoing federal and state investigations & turns this
Court's abstention jurisprudence on its head, it calls on federal courts to abstain from hearing claims
that could be brought in state court, regardless of whether any of the three narrow Younger exceptions
to federal jurisdiction apply, and notwithstanding that any delay in reviewing the constitutional claim at
issue eviscerates the very right the claim seeks to vindicate. Each additional day that the petitioner
rights is being harmed and left unprotected press more risk complaints of endangerment to his life and
of obstruction to sealed filing ongoing investigations.
Moreover any delay necessarily undermines the constitutional Fair Due process , interest Of Justice in
play. The decision below is wrong, and acknowledges that it creates a square split of authority with the
Ninth Circuit, It also splits with the Second Circuit. A split of authority over a question of federal
jurisdiction merits this Court's prompt review. The fact that the underlying merits of this claim implicate
an important constitutional interest only magnifies the importance of resolving this question now.
--------- 4

OPINIONS BELOW
The opinion of the United States Court of Appeals for the Fourth Circuit is reproduced at Pet.App. A
is reproduced at Pet.App 6

The order of the U.S. District Court for the
♦------

JURISDICTION
The Court of Appeals entered judgment on .1

Oi

Petitioner filed
to 28 U.S.C. § 1254(1).

STATUTORY PROVISIONS INVOLVED
Jftftfj Smenbrnent ©fHITje ®ntteb State* Constitution
28 »A.C. § 1254(1)

(earing was denied,

This Honorable Court has jurisdiction pursuant

42 Wl.S>.€. § 1983

STATEMENT OF THE CASE
Background History:
Plaintiff

.and

, & Academic Teaching Medicine!
Medicin

blown the whistle of

, awarded The American Board Of internal
tand,

violations hi

against his Employer sponsoring him for Green card visa in exchange for serving in medically
underserved areas in The Appalachian region of West Virginia State,

Exhibit 9, then , The sponsor

retaliated alleging unprofessional conduct by plaintiff causing Medical license suspension in the WV
state for 2 months

Exhibit 10 .which automatically in state by state endorsement reaction led

eventually to medical license suspension in OHIO & VA states in

.Exhibit 11 .terminating plaintiffs

job with the medical group practice in central Virginia in HV. leaving plaintiff no other but to open his
own medical solo practice in Northern Virginia are;
outpatient clinic tel

* building a Solo practice In Hospitals and

'.with lack of knowledge or staff that can be afforded of how to keep the

administrative business aspect of the Practice going & not paying enough attention to proper billing
administrative insurance claims, all led to faults and mistakes in billing coding that went to Insurance
audit By BCBS ( Blue Cross Blue Shield in 2003 ) with advice of counsel to plea of guilty in
[Exhibit 12,

aintiff

Virginia Board Hearing:
Upon reinstatement hearing with the Virginia Medical Board after Passing the Medical Licensing
Examination again in April,2017 (SPEX) Exhibit 14 from The Federation Of State Medical Licensing
Boards and The Practice assessment reviews (CPEP .Exhibit 15) by Medical Peers April.2017 ,

Awkwardly and with no prior notice , The Medical Board insisted in a public reinstatement medical

mmp^garding
(Board Hearing Record Exhibit 16 )and upon plaintiffs
refusal
.an
.The Defendant

.preserving
.alleging in error and harmful bias against

any due process rights ,thai
i. Plaintiff medical license is

throwing away the federal

ii. Alleging The Plaintiff pass mark in the medical licensing exam was not high enough , without staling
what mark is needed to proof competency ,nor allowing to retake to test again.
iii. That the practice peer assessment (CPEP) was not good enough yet. Though The CPEP recommended
Medical Practice Reentry Plan. Exhibit 15.

&

>f Board’s errors to the States courts was unsuccessful

the

simply because the Medical Board did petition the courts not to include any outside board
hearing evidence of Plaintiffs

^citing then that the

Plaintiff Struggle against The Defendant's abuse of due process violations, and harmful bias :
2017-2020: Attempting to overcome the Board bias and hurdles of due process violations and harmful
bias , Plaintiffs went through all efforts to proof to The Board his eligibility :
1 - Reinstated as a Medicare Provider ,2019 By The Government Department Of Health & Human
Services. Exhibit 18
2-Reinstated as a Medical Provider with all Federally Funded Health Insurance Programs. Exh 19

3- Successful completion or Practice reentry Educational CPEPplan. Exh 15
4- Retake SPEX exam If The Board allows to show any better Pass Mark the Board deems. Exh 20
5-More than a six Hundred Certified Medical Educational continuance Hours, conferences, seminars and
live medical courses in medical university courses .including Ethics, billing, office practice
management, patient communications... etc. Exh 21
(. Plaintiff is.Medically professionally competent to Practice

6

Denied again as Defendant's violations repeated itself:
The Board

In

Again with the same scenario

»f<

and questioning how can plaintiff
iring to hear Plaintiff’ll

refusing to giant any1

;lose by a federal Judge in a

ledical licensi

tnd the matter of
refusing to gram any

chance to retake SPEX exam again , but still allege in the Board finding that his SPEX pass mark is not
enough, also ignoring all the other competency standards passed (CPEP) and completed that support
reinstatement.

*

In Short Summary:
The Boards Bias and unfair due process rights violations left Plaintiff no other choice but seeking
Federal relief from this unfair unjust unconditional due process violations that has no remedy in any state
court even If Plaintiff goes through that cycle again and again in 2020 ,see Gibson v. Berryhill, 411
(J.S. 564 (1973),”

but to drag for another 2 to 3 years to end up again where he started with the
, not to hear

defendant not allowing!

with defendant petitioning the state
courts on appeal to not to allow any’

,out of Defendant's public hearings , from

being available to be admitted as evidence by the Plaintiff in appeal to be heard in any slate court as
already proven in over and over in the last three years, when the Board simply petit ion the courts not
include

itrt was not permitted in a Public State Medical Board of the

I .leading
pr an;
eventually again

.in

to state courts denying Plaintiffs

constitutional rights and a

fair unbiased due process.

Lessard, 414U.S. 473 (1974), In Hicks v. Miranda, 422 U S. 332

"The

see .Schmidt v.
District Court erred in reaching the merits of the case despite appellants' insistence that it be dismisse
„,,r„.rand*»««., «uc,c, Pp.«U, *■hasJUr,Sd, .
under Younger v.
over the appeal u

nder 28 U.S.C. § 1253, and the injunction,

as well as the declaratory judgment, is

S. 342-348. seen also in Salem Inn Inc. V
pro

. Frank .364 -F. Supp- 478

petty before the Court. Pp. 422 U

v. Salem Inn. Inc. 422 US. 922 (1975)
<E.D.N.Y.1973),Doran v.
Path left for Justice to Plaintiff:
ai Relief Respectfully sought is the only
Feder
est for relief to remove this due process violation and
Plaintiff filed this Federal Complaint with requ
on his life or any lair of criminal
n where he can relay without tear
allow a fair unbiased hearing to happe
ibstTiiction of Justice
prosecution in
issues revealing
{ The "sole determination as to factual issues

is whether substantial evidence

" Kenley, 6 Va. App
to support the agency’s decision,

exists in the agency record

at 242,369 S.E.2d at 7. "'ISJsubstantial evidence'

adequate to support a conclusion.
vidence as a reasonable mind might accept as
refers to such relevant e
s of fact only if, considering the record as
,, the court may reject the agency's finding
Under this standard.
different conclusion." Aegis Waste Solutions v.
a whole, a reasonable mind would necessarily come to a
544 S.E.2d 660,665 (2001) (quoting Virg in,a Real Estate
Concerned Taxpayers, 261 Va. 395,404
(1983) {"Bias")) (emphasis in original). }
264,269,308 S.E.2d 123,125
Comm‘n v. Bias, 226 Va.
determination by the teviewing court whether an agency has . . .accorded
if “the legal issues require a
required procedures,
with statutory authority, or iailed to observe
tstitulional rights, failed to comply
COl
their judicial function and merely
d the reviewing courts should not abdicate
less deference is required an
; 7_8 (1988) (emphasis added
determination." App. 231,243,369 S.E.2d 1
rubber-stamp an agency
Johnston-Willis, Ltd. v. Kenley, 6 Va.).

District Court Errorsi

k(Not Considering The Whole Complaint record or Plaintiff

responses prior to dismissing his case ):
see The Rule 12(b)(6) test has been revised in recent years. In Conley v. Gibson, 355 U.S. 41 (1957), the
Supreme Court stated the interplay between Rule 8 (pleading) and Rule 12(b)(6) as follows: “[T]he
accepted rule (is) that a complaint should not be dismissed for failure to state a claim unless it appears
beyond doubt that the plaintiff can prove no set of facts in support of his claim which would entitle him to
relief.” 355 U.S. at 45-46. In Bell Atlantic Corporation v. Twombly, 55 U.S. 544 (2007), tte Court noted
questions raised regarding the “no set of facts” test and clarified that “once a claim has been stated
adequately, it may be supported by showing any set of facts consistent with the allegations in the
complaintid. at 563. it continued: “Conley, then, described the breadth of opportunity to prove what an
adequate complaint claims, not the minimum standard of adequate pleading to govern a complaint s
survival.” Id. in Ashcroft v. Iqbal, 556 U.S. 662 (2009), tire Court further elaborated on the test, including
this statement: “To survive a motion to dismiss, a complaint must contain sufficient factual matter,
accepted as true, to “state a claim to relief that is plausible on its face.5” Id. at 1949 (citation omitted).
Where a complaint is inadequate, leave to amend the complaint is common. See. e.g., Butt v. United
Brotherhood of Carpenters & Joiners of America, No. 09-4285, 2010 WL 2080034 (E.D. Pa. May 19,
2010).
The Court Must Consider the Complaint in Its Entirety when Evaluating a Motion to Dismiss for
Failure to State a Claim, “courts must consider the complaint in its entirety, as well as other sources
courts ordinarily examine when ruling on Rule 12(b)(6) motions to dismiss.” Dunn v, Castro, 621 I' 3d
1196, 1205 n.6 (quoting Tellabs, Inc. v. Makor Issues & Rights, Ltd., 551 U.S. 308, 322 (2007)); Magulta
y. Samples, 375 F.3d 1269, 1274-75 (11th Cir. 2004) (when reviewing a motion to dismiss for failure to
state a claim, courts should read the complaint in its entirety); 5 Wright & Miller, Federal Practice and
Procedure § 1286 (3d ed. 2004); 5B Wright & Miller, Federal Practice and Procedure § 1357 (3d ed.
2004).
Consideration of the Complaint as a whole demonstrates that it meets die requirements established

under the Federal Rules. “[A] complaint must contain sufficient factual matter .. to ‘state a claim for
relief that is plausible on its face.”4 Ashcroft v. Iqbal, 129 S.Ct. 1937. 1949 (2009) (quoting Bell Atlantic
Corp. v. Twotnbly, 550 U.S. 544, 570 (2007)). This standard is met where “the plaintiff pleads factual
content that allows the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged” Iqbal, 129 S.Ct. at 1949 (citing Twombly, 550 U.S. at 556). Here, the Complaint
presents a detailed recitation of Plaintiffs’ assertions that more than satisfies the pleading requirements. A
review of the entire Complaint demonstrates that the Complaint in no way relies upon mere legal
conclusions but contains a detailed factual account of Defendants’ illegal practices which establish their
liability for the violations. Shaun McCutcheon et at, Plaintiffs v. Federal Election Commission, Civ. No.
1:12-CV-01034-JEB-JRB-RLW
Without Granting a single hearing to be heard .Plaintiff Federal case was dismissed with prejudice after
the District Court Judge in error :
- Issue of Federalism and comity ( Huffman v. Pursue, Ltd., 420 U.S. 592 (1975)).
- The Court can't certify a similar federal district court of any sealed wai ver of permanent surrender
clause.
- That The Defendant's motion to dismiss citing Rooker- Feldman case do support plaintiffs case
dismissal, even before reviewing Plaintiffs response .

iy

currently

anil to'

2.'

ines .NY,VA,MD,DC,DE,NJ

3. I

,lo cooperate in any federal law violations against

, making a maintenance
critical and’

tif Justice.

ii

Statement Of The Facts
I.’

2.i

esistance

P August 2,1990 . ^

3.1

fcef
He Deported
Bprd

kwith

kwas d

He was allowed

The Blessing only From God and the kindness of the US Ernbass;

4.Plaintiff was accepted asif

in

Affiliated Cornell Medical Center,
Program

NYU , Internal Residency American Board Specialty
5. For Stay in The US

|The only waiver

was to serve in The

Appalachian underserved medical shortage area , West Virginia state ..sponsored through his employer lor
Immigrant Visa (Green Card).
6. The Sponsor violating the immigration Jl-Visa program employed and contracted

jun Private

owned Hospitals and clinics in The State of Kentucky, illegally.
7. Although Threaten to be retaliated against, Plaintiff informed as a Whistle Blower to The Inspector
General,

in

of the Employer Scheme abusing Physicians who are Foreign Medical

Gradates in need of The Green Card. (Exhibit 9).
8. Plaintiffs Punishment front The Employer was alleging lies To The WV Board Of Medicine of
improper medical conduct toward two female cousins medical assistance alleging Plaintiff

unprofessionally exam in Employer clinic network, leading to 2 Months medical License Suspension
(Exhibit 10).
9. Plaintiff explained all his facts and informed The Medical Board Of Virginia ,of the allegations and ,
was exonerated in

V>f no wrong doing. (Exh 24).

Plaintiff continued his efforts to find a suitable employer sponsor that will not jeopardize medical Practice
patient safety . Exhibit 25.
10.5

, OHIO state medical Board suspends plaintiff medical license for 6 months citing an error

in application disclosure June!

when WV Board Formal suspense investigation was issued

It Exhibit 11.
11. In June 1998 . VA medical board administratively suspends Plaintiffs License due to Ohio
Suspension, reorder reinstatement hearing Aug, 1998 , Plaintiff awarded reinstatement after review again
of all facts including KY medical Board informal grievance 1995 ,in which plaintiff was found at no
lault, VA Medical Board repri manded Plaintiff due to no such disclosure of KY employment history.
Exhibit 26A.
12. Plaintiff two months wait for reinstatement June-Aug 1998 cost him his Group Practice Job in
Central Virginia.
^ «*.

13. Forced to start in Northern Virginia a whole new Solo Practice in 1999 2thal needed to start from
scratch without a single experience in any office management or administrative handling of billing nor
able to afford hiring such needed office managers.
14. attempting to take care of patients and handling of the business aspect of the solo office practice ,
eventually foiled to comply with standards of billing insurance various codes of patient encounters ,!
with Blue cross Blue shield audit and Medicare as secondary insurance .all finally to end up upon
counsel advise to the 2004 health claims over coding insurance violation and

15. V A Medical Board declined to accept the surrender in<|
felony conviction .with a hearing reinstatement option

and issues a suspension due to the

16. In 2006.,

17. upon Substantial

18. Upon Defendant's continued due process blockage and unjust hearing practices)

191

Plaintiff filed respectfully this appeal In The US Court Of appeals for the
Fourth Circuit

STATEMENTS OF ISSUES PRESENTED FOR REVIEW
1. Weather The District Court denied Plaintiff Due process in its procedural errors in processing
that had been deemed warranted critical for sound

Plaintiffs motions toi

federal Order By The

judgment in it's review of the merits of the case especially }
.whic

Honorable District

ir

2. Weather The District Court error in applying Huffman v. Pursue, Ltd 420 U.S(1975) as basis for
dismissal .where actually The Supreme Court Opinion Pre-Huffman and post Huffman points to the
Opposite of Federalism or Comity issue ?
3. Weather The District Court error in finding that defendant's motion support such dismissal .especially
prior even to review Plaintiffs response to Defendant's dismissal motion?

Summary Of The Argument
1, Appeal on Issues of District court Procedural errors:

‘V„

pf the

The District Court cited that the

However when Plaintiff filed a
The District Court Honorable Judg<

that motion to be

and cited in the case dismissal order that his court will not certify another district federal court finding or
ruling, when actually Plaintiff never asked to certify any other court ruling , but all what was intended is
to comply with the District Court Honorable Jud.

jin ding and ruling that that

2. Appeal On The Merits:
District court applied in error the US Supreme Court ruling in Huffman v. Pursue, Ltd., 420 U.S. 592
(1975) .citing federalism and comity matter as the standard to dismiss Plaintiffs claims .when in Fact all
the Supreme Court case decisions pre Huffman and Post Huffman points to the application of (he
f ollowing when decidinj^the merits or jurisdictional basis to hear a federal claim under Section 1983 of
Title 42 of the United States Code, or the 5th amendment claims as summarized below:
i) IS THERE ANY CURRENT PENDING STATE COURT PROCEEDING?
In Steffel v. Thompson, 415 U.S. 452 (1974) "Federal declaratory relief is not precluded when a
prosecution based upon an assertedly unconstitutional state statute has been threatened, but is not
pending, even if a showing of bad faith Page 415 U. S. 453 enforcement or other special circumstances
has not been made. Pp. 415 U, S. 460-473. (a) When no state criminal proceeding is pending at the time
the federal complaint is filed, considerations of equity, comity, and federalism on which Younger i>.
Harris and Samuels v, Mackell both supra, were based, have little vitality: federal intervention does not
result in duplicative legal proceedings or disruption of the state criminal justice system; nor can federal
■. ■■

»fe:- ■ ■;

intervention, in that circumstance, be interpreted as reflecting negatively upon the state courts’ ability to
enforce constitutional principles. Pp. 415 U. S, 460-462
ii) IS THERE ANY AVAILABLE FAIR STATE COURT PROCEEDING FOR RELIEF?
In Gibson v. Berryhili, 411 U,S. 564 (1973)," The anti-injunction statute did not bar the District Court
f rom issuing the injunction, since appellees brought suit under the Civil Rights Act, 42 U.S C. § 1983.
Pp. 411 U. S, 572-575.2. Nor did the rule of Younger v. Harris, 401 U. S. 37, or principles of comity

require the District Court to dismiss appellees' suit in view of the pending Board proceeding, since the
appellees Page 411 U. S, 565 alleged and the District Court concluded that the Board’s bias rendered it
incompetent to adjudicate the issues. Pp. 411 U. S. 575-577
The court concluded that it was not barred from acting by the federal anti-injunction statute, since only
administrative proceedings were involved, and that exhaustion of administrative remedies was not
mandated where the administrative process was biased in that the Board, by its litigation in the state
courts, had prejudged the case against appellees "
iiijWhat is the Timing of The Slate Court Criminal Filing? If Any?
In Hicks v. Miranda, 422 U.S. 332 (1975). "The District Court erred in reaching the merits of the case
despite appellants' insistence that it be dismissed under Younger v. Harm and Samuels v.
Macke!L Pp. 422 U. S. 348-352"," This Court has jurisdiction over the appeal under 28 U.S.C. § 1253.
and the injunction, as well as the declaratory judgment, is properly before the Court. Pp. 422 U. S. 342348."
seen also in Salem Inn Inc. V. Frank .364 ,F. Supp. 478 (E.D.N.Y. 1973) ,Doran v. Salem Inn. Inc. 422
U.S. 922 (1975.)
iv.) Importance of The State court Proceeding? In The Sake Of Justice ?
Weighing any harm or threat to the state courts proceedings, if any, against constitutional violation of
due process and threat to the Federal Plaintiff;
In Schmidt v. Lcssard, 414 IDS. 473 (1974) "In October and November, 1971, appellee Alberta Lessard
was subjected to a period of involuntary commitment under the Wisconsin State Mental Health Act,
Wis, Stat. § 51.001 el seq. While in confinement, she filed this suit in the United States District Court for
the Eastern District of Wisconsin, on behalf of herself and all other persons 18 years of age or older who
were being held involuntarily pursuant to the Wisconsin involuntary commitment laws, alleging that the
statutory scheme was violative of the Due Process Clause of the Fourteenth Amendment. Jurisdiction was
predicated on 28 U.S.C. § 1343(3) and 42 U.S.C, § 1983. Since both declaratory Page 414 U. S. 474 ".
Clearly , The Supreme Court ruling in Huffman does not apply to this case as Plaintiff never had any
current state civil or criminal proceeding , nor is there any fair chance of relief in any state proceeding if
to happen with the Board’s Bias ,all is requested mainly is to have a fair due process shot in an

administrative proceeding , requesting protection of his constitutional due process rights under The US
Federal Laws and The 5th amendment.
Moreover as claimed in ERROR by the Defendant’s dismissal motion request supported by the district
court .where in Fact, true analysis of facts clearly shows that The Rooker-Feldman Doc tonne does not
apply

Mistakenly .The counsel is arguing now that plaintiff claim should be dismissed simply because

he can appeal the Board decision to a state court", arguing a complete misunderstanding if the RookerFeldman doctorin even applies as shown below :
1. The Rooker-Feldman doctrine derives its name from two U.S. Supreme Court cases, Rooker v.
Fidelity Trust Co., 263 U S. 413 (1923) and District of Columbia Court of Appeals v. Feldman, 460
U.S. 462(1983),
The Rooker-Feldman doctrine deprives federal district and bankruptcy courts of jurisdiction over suits
that are essentially appeals front state court judgments. The policy is based on the idea that a litigant
should not be able to challenge state court orders in federal court as a means of relitigating matters that
already have been considered and decided. The Rooker-Feldman doctrine applies when four requirements
are met: (1) the federal plaintiff lost in state court, (2) the plaintiff complains of injuries caused by the
state court judgment. (3) that judgment issued before the federal suit was filed, and (4) the plaintiff invites
the district court to review and (eject the state court judgment.
Plaintiffs supported claim with set of facts and evidence that included
the defendants own 'procedural hearing records

witnesstestimony, interviews, staff

inner communications and actions in the matter of Plaintiff
hearing process . Plaintiff has sought relief against defendants injury to him that is viable .recurring and
happening now or in any future

(earing again through a series of actions and decisions

stripping plaintiff of his fair constitutional granted due process .disallowing plaintiff's already decided
.Honorable Federal1
o f permission u'
disallowing plaintiff repeated attempts t

In Th<?

defendants in'

(well as out of state and discriminating harmfully against plaintif f all success ol

showing professional competency .passing medical licensing Exams e g. SPEX and peer review fife
medical assessment panels (CPEP) ,as well as discriminating against the fact that the Federal government
had already reinstated plaintiff as a Medicare provider and in all federally funded health insurance
programs . Plaintiffs' claims survives Rooker-Feldman matter and comply with the jurisdictional test
pursuant to Rules 12(b)( 1) and 12(b)(6) of the Federal Rules of Civil Procedure for multiple reasons as
shown below:

Legal Standard Of Review
A motion to dismiss a complaint for lack of subject matter jurisdiction pursuant to Fed. Civ.P
12(b)(1) “addresses whether (the plaintiff] has a right to be in the district court at all and
whether the court has the power to hear and dispose of [the plaintiff s] claim.

Holloway

vPagm River Dockside Seafood, Inc., 669 F.3d 448,452 (4th Cir. 2012). A court should grant
such a motion “only if the material jurisdictional facts are not in dispute and the moving party
is entitled to prevail as a matter of law." Evans v. B.F. Perkins Co., a Div. of Standex hit I
Carp.. 166 F.3d 642,647 (4th Cir. 1999) (internal quotation marks omitted).Ruie 12(b)(6)
provides that parties may assert by motion a defense based on “failure to state a claim upon
which relief can be granted.” Fed. R. Civ. P. 12(b)(6). The Rule 12(b)(6) test has been revised
in recent years. In Conley v. Gibson, 355 U.S. 41 (1957), the Supreme Court stated the
inte rplay between Rule

8 (pleading) and Rule 12(b)(6) as follows: “[T]he accepted rule [is]

that a complaint should not be dismissed for failure to state a claim unless it appears beyond
doubt that the plaintiff can prove no set of facts in support of his claim which would entitle
him to relief.” 355 U.S. at 45-46. In Bell Atlantic Corporation v. Twombly, 55 U.S. 544
(2007). the Court noted questions raised regarding the “no set of facts test and clarified that
“once a claim has been stated adequately, it may be supported by showing any set of facts

consistent witli the allegations in the complaint,*' id. at 563. It continued: ‘‘Conley, then,
described the breadth of opportunity to prove what an adequate complaint claims, not the
minimum standard of adequate pleading to govern a complaint’s survival.” Id. In Ashcroft
Opposition to Motion to Dismiss 1 Case 1:12-cv-01034-JEB-JRB-RLW Document 23 Filed
09/04/12 Page 1 of 8 v. Iqbal, 556 U.S. 662 (2009), the Court further elaborated on the test.
including this statement: “To survive a motion to dismiss, a complaint must contain sufficient
factual matter, accepted as true, to “state a claim to relief that is plausible on its face.’” Id. at
1949 (citation omitted). Where a complaint is inadequate, leave to amend the complaint is
common. See, e.g„ Butt v. United Brotherhood of Carpenters & Joiners of America, No. 094285, 2010 WL 2080034 (E.D. Pa. May 19, 2010) A court considering either type of motion
assumes that the facts alleged in the complaint are true and views the complaint in the light
most favorable to the plaintiff. Id., see also Adams v.Baia, 697 F.2d 1213,1219 (4th Cir.
!982)(couit considering a motion to dismiss “contending that a complaint simply fails to
allege facts upon which subject matter jurisdiction can be based” affords the plaintiff “the
same procedural protection as the plaintiff would receive under a Rule I2(b)(6)considerati.on’’)

Federal Jurisdiction Sought perused under:
A) Fifth Amendment OfThe United States Constitution : "No person shall be held to answer Tor a capital,
or otherwise infamous crime, unless on a presentment or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia, when in actual service in time of War or public
danger; nor shall any person be subject for the same offence to be twice put in jeopardy of life or limb:
nor shall be compelled in any criminal case to be a witness against himself, nor be depri ved of life,
liberty, or property, without due process of law; nor shall private property be taken for public use, without
just compensation.
B) (42 U.IS,C. § 1983) "Every person who, under color of any statute, ordinance, regulation, custom, or

usage, of any State or Territory or the District of Columbia, subjects, or causes to be subjected, any
citizen of the United States or other person within the jurisdiction thereof to the deprivation of any rights,
privileges, or immunities secured by the Constitution and laws, shall be liable to die party injured in an
action at law, suit in equity, or other proper proceeding for redress, except that in any action brought
against a judicial officer lor an act or omission taken in such officer’s judicial capacity, injunctive relief
shall not be granted unless a declaratory decree was violated or declaratory relief was unavailable. For the
purposes of this section, any Act of Congress applicable exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbians. § 1979; Pub. L. 96-170, § 1, Dec. 29, 1979, 93
Slat. 1284; Pub. L. 104-317, title HI, § 309(c), Oct. 19,1996, 110 Slat. 3853.)”.
"Section 1983 Litigation" refers to lawsuits brought under Section 1983 (Civil action for
deprivation of rights) of Title 42 of the United States Code (42U.S.C. $ 1983). Section 1983 provides
aii individual the right to Section 1983 does not provide civil rights; it is a means to enforce civil
rights that already existsue state government employees and others acting "under color of state
law" for civil rights violations.
Under Patsy v. Board of Regents of Florida, 457 U. S. 496. which held that plaintiffs need not exhaust
state administrative remedies before instituting § 1983 suits in federal court, is not inapplicable to this
state court suit on the theory, asserted by the Wisconsin Supreme Court, that:
Stales retain the authority to prescribe the rules and procedures governing suits in their courts. That
authority does not extend so far as to permit Stales to place conditions on the vindication of a federal
right. Congress meant to provide individuals immediate access to the federal courts, and did not
contemplate that those who sought to vindicate their federal rights in state courts could be required to
seek redress in the first instance from the very state officials whose hostility to those rights precipitated
their injuries. There is no merit to respondents contention that the exhaustion requirement imposed by the
Wisconsin statute is essentially de minimis,.
In View Of Unfairness and blockage of Justice in due process of PkintH’fMHHBHBIHMin

the Virginia state Medical Board that left Plaintiff no other choice but to seek justice and fairness in this
Honorable Federal Court especially that Plaintiff has put over three years all his time / efforts/and
resources to medical Board but with no chance of a single fair due process without jeopardising his
liberty, livelihood or his constitutional or civil rights.
The United States Supreme Court held that a local government is a "person'’ that can be sued
under Section 1983 of Title 42 of the United Stales Code: ci vil action for depri vation of rights.11* Tire
Court, however, required that a §1983 claim against a municipal entity be based on the implementation or
execution of a "a policy statement, ordinance, regulation, or decision officially adopted and promulgated
by that party's officers".1"-1 Additionally, the Court held that municipal entities "may be sued for
constitutional deprivations visited pursuant to governmental 'custom' even though such a custom has not
received formal approval through the body’s official decision making channels"
(b) In 1871, when Congress enacted what is now § 1983, it was generally understood that a municipality
was to be treated as a natural person subject to suit for a wide range of tortuous activity, but this
understanding did not extend to the award of punitive damages at common law. Indeed, common law
courts consistently and expressly declined to award punitive damages against municipalities. Nothing in
the legislative history suggests that, in enacting § 1 of the Civil Rights Act of 1871, Congress intended to
abolish the doctrine of municipal immunity from punitive damages. If anything, the relevant history
suggests the opposite. Pp. 453 U. S. 259-266.
Defendant has filed a Motion to Dismiss (“Motion”) based on Federal Rule of Civil Procedure 12(b)(1)
and 12(b)(6). Plaintiffs oppose the Motion for the following reasons, showing the defendant
misunderstanding of Rooker-Feldman Doctorine and how it does not apply to the Plaintiffs claims as
detailed below:

Argument
First: 12(b)(1) Matter: Subject Matter Jurisdiction :

Plaintiffs’ claims are inherently entangled with (and predicated upon) under the fifth Amendment.
U.S. Constitution and Section 1983 of Title 42 of the United States Code as shown below:
Although the party in voking the jurisdiction of the Court bears the burden of establishing standing,
"laJt the pleading stage, general factual allegations of injury resulting from the defendant's conduct may
suffice." Id.

at 561. Nothing in Plaintiffs’ claims is abstract, and only this Court can remedy the

deprivation of Plaintiffs’ rights. Doe v. County of Centre, PA, 242 F.3d 437.453 (3d. Cir. 2001)
("allegation, while disputed by the county, does not constitute an ’abstract disagreement!.] incapable ol
judicial resolution") (citing Abbott Laboratories

Gardner, 387 U.S. 1.36, 148 (1967); U. S. ex rel.

Ricketts v. Lightcap, 567 F.2d 1226, 1233 (3d. 11 Case 1:12-cv-02522-RMB-AMD Document 39 Filed
03/04/13 Page 12 of 31 Page ID: 477 Cir. 1977).
Plaintiff pleads a federal claim of ongoing violations of the plaintiff rights protected under the
constitution and the united states laws and has presented Facts & ,not mere allegations, that is supported
by Documents (Evidence Summery List) including the defendant's own board hearing records ,
investigator reports/interviews and staff communications that gives rise to Federally recognized Rip
claims that is under the scope of Our Constitution and the laws of the United Stales
A) The United States Supreme Court held that a local government is a "person" that can be sued
under Section 1983 of Title 42 of the United States Code , and the United States Constitution.
B)Fifth Amendment claims in this matter specifically invoke their lederally-recognized rights. Any
state administrative process, which Defendants suggest should take the place of this Court, would not
only be inadequate to address Plaintiffs’ federal claims, but it would also be tainted with Defendants'
ongoing unconstitutional actions.

Second : Plaintiff s Claims Are Ripe For Adjudication:
Despite what Defendants may wish for this Court to believe, Plaintiffs' claims do not hinge on any
contingencies and are ripe for adjudication. Defendants' suggestion to the contrary underscores their

disregard for the important rights that Plaintiff's seek to pursue in this matter. Those rights, for the
Plaintiffs, literally could mean the difference between life and death. In cases where a plaintiff seeks
injunctive or declaratory relief only, standing will not lie if "adjudication ... rests upon ’contingent future
events that may not occur as anticipated or indeed may not occur at all.’ "Rodgers-Durgin v. De La Vina,
199 F.3d 1037, 1044 (9th Cir.l 999) (quoting Texas v. United States, 523 U.S. 296 (1998)). Indeed, in
"ADA cases, courts have held that a plaintiff lacks standing to seek injunctive relief unless he alleges
facts giving rise to an inference that he will suffer future discrimination by the defendant." Shot/ v. Cates,
256 F.3d 1077,1081 filth Cir.2001) (citations omitted); see also Armstrong World Indus., Inc. v. Adams,
961 F.2d405, 422 (3d Cir. 1992) (discussing how courts should dismiss action on ripeness grounds when
a complaint seeking declaratory relief rests on the contingency that some future act will occur). As
discussed below. Plaintiffs in this case have properly alleged facts giving rise to an inference that they
will suffer future discrimination, thus, they have presented a ripe claim and have proper standing to do so.
Some courts have rejected similar attempts by parties to render a case an ripe. See Malama Makua v.
Rumsfeld, 136 F.Supp.2d 1155, 1161 (D.Haw.200l) ("Ripeness is an element of jurisdiction and is
measured at (he time an action is instituted; ripeness is not a moving target affected by a defendant's
action."). See also Travelers Ins. Co. v, Obusek, 72F.3d 1148,1154 (3d Cir. 1995) ("(R'jipeness requires
that the threat of future harm must remain 'real and immediate' throughout the course of the litigation.")
(quoting Salvation Army v. Dep'i of Cmty. Affairs, 919 F.2d 183, 192 (3d Cir.1990)). In this case.
Plaintiffs have suffered adverse consequences of Defendants' policies and procedures.
The allegations in Plaintiffs’ Amended Complaint meet the requirements of the Federal Rules of Civil
Procedure Including:

Third : 12(b)(6) Claim for Relief:
Claim for Relief stated and sought not only is a matter of Fair due process and justice that the plaintiff
is seeking but it is a matter
blower of cases that induci
''Relief Sought:

Plaintiff .through a Hearing, humbly prays that the Honorable Court award him the

following- relief:
- Enforcement of Plaintiff civil and constitutional rights in a Fair Due process in his livelihood ski lled

Board hearing

- SPEX exam to be allowed to be retaken to show competency if competency is still an issue .
- Allow plaintiff to complete his CPEP practice reentry plan as required under the supervision of the
Medical Director."
Plaintiff has already suffered enough violations proven by facts that harmed him and further future
handful injury awaiting to happen unfortunately is deemed to happen and not contingent upon any third
party other than The Defendants own procedures that has proven harmful. biased, discriminatory and
unlawful as Facts already shown per Plaintiff filings on record:
Rule 12(b)(6) provides that parties may assert by motion a defense based on “failure to state a'claim
upon which relief can be granted.'' Fed. R. Civ. P. 12(b)(6). The Rule 12(b)(6) test has been revised in
recent years. Ln Conley v. Gibson, 355 U.S. 41 (1957), the Supreme Court stated the interplay between
Rule 8 (pleading) and Rule 12(b)(6) as follows: “The accepted rule is that a complaint should not be
dismissed for failure (o stale a claim unless it appears beyond doubt that the plaintiff can prove no set of
facts in support of his claim which would entitle him to relief.” 355 U.S. at 45-46. In Bell Atlantic
Corporation v. Twombly, 55 U.S. 544 (2007), the Court noted questions raised regarding the “no set of
facts” test and clarified that “once a claim has been stated adequately, it may be supported by showing
any set of facts consistent with the allegations in the complaint,” id. at 563. It continued: “Conley, then,
described the breadth of opportunity to prove what an adequate complaint claims, not the minimum
standard of adequate pleading to govern a complaint’s survival.” Id. In Ashcroft v. Iqbal, 556 U.S. 662
(2009). the Court further elaborated on the test, including this statement: “To survive a motion to dismiss,
a complaint must contain sufficient factual matter, accepted as true, to “stale a claim to relief that is

plausible on its face.’" Id. at 1949 (citation omitted). Where a complaint is inadequate, leave to amend the
complaint is common. See, e.g., Butt v. United Brotherhood of Carpenters & joiners of America, No. 09
4285. 2010 WL 2080034 (E.D. Pa. May 19, 2010).
The Court Must Consider the Complaint in Its Entirety when Evaluating a Motion to Dismiss for
Failure to State a Claim, "courts must consider the complaint in its entirety, as well as other sources
courts ordinarily examine when ruling on Rule 12(b)(6) motions to dismiss.” Dunn v. Castro, 621 F.3d
1196, 1205 n.6 (quoting Tellabs, Inc. v. Makor Issues & Rights, Ltd., 551 U.S. 308, 322 (2007)); Magulta
v. Samples, 375 F.3d 1269, 1274-75 (11th Cir. 2004) (when reviewing a motion to dismiss for failure to
state a claim, courts should read the complaint in its entirety); 5 Wright & Miller, Federal Practice and
Procedure § 1286 (3d ed. 2004); 5B Wright & Miller, Federal Practice and Procedure § 1357 (3d ed.
2004).
Consideration of the. Complaint as a whole demonstrates that it meets the requirements established
under the Federal Rules. “A complaint must contain sufficient factual matter ... to ‘state a claim for
relief that is plausible on its face. ’" Ashcroft v. Iqbal, 129 S.Ct. 1937, 1949 (2009) (quoting Bell At lantic
Cotp. v. Twombly, 550 U.S. 544, 570 (2007)). This standard is met where "the plaintiff pleads factual
content that allows the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged,” Iqbal, 129 S.Ct. at 1949 (citing Twombly, 550 U.S. at 556). Here, the Complaint
presents a detailed recitation of Plaintiffs’ assertions that more than satisfies the pleading requirements. A
review of the entire Complaint demonstrates that the Complaint in no way relies upon mere legal
conclusions but contains a detailed factual account of Defendants’ illegal practices which establish their
liability for the violations. Shaun McCutcheon et a!., Plaintiffs v. Federal Election Commission, Civ. No.
1:12-cv-01034-jEB-JRB-RLW
__The prior Board history of handling Plaintiff

iQt only once hut twice, is more

than enough evidence of why Plaintiff is seeking protection of his constitutional granted rights .Fifth
amendment protection.& Fair due process
The Board is aski ng This Honorable court to simply dismiss Plaintiff claims just because

ill

have his fair chance and will be given all the opportunity to be heard and then if he does not like it then he
can go to the same state courts to be heard :
time to go in front of the board (hen let us examine this future alleged anticipated fair hearing that the
board will allow Plaintiff to have and to see if that will give even any chance of successfully due process
hearing:
I. As The Honorable Judge

latus of t!

ispecialf

jwell as out of state vJ
,and not obstructing justice nor viola|

;der hearings

during which Federal Honorable G
i. but regardless how much plaintiff will needed to show all that in his future
tearing in

as

Virginia statue rules VA Code

2.2-3711 "Closed Meeting authorized for certain purposes that include
, The Board simply will insist on conducting

how can you

" or even try to point to the Board's own investigator interview with The
he will be again unable to completely show the

and protecting his Fifth amendment constitutional right.
Then again the board not seeing the whole facts that Plaintiff is trying to show , will simply base in

error that plaintiff Is to

and not to be licensed again no matter what competency

exams SPEX or peer medical professional assessments or recommendations CPEP.
As A matter of fact The counsel for the defendant is stating again now in here motion to dismiss dated
:ven after

ionorable Judgi

tirly ."page 9 .line 5 "

ler that discloses the Plaintiff

p(aimed that he was entitled to1

hearing in violation of the'

sed on vague claims oi

bereas clearly the

facts had shown the opposite thal

is'

mgoing .led to

case since j

, am
So Here is the Challenging question raised in this claim :
HOW CAN THE BOARD THAT IS NOT ALLOWING
occur. is to come now to judgej

fill

This Plaintiff is

hearing to
or noi.wiihout even knowing what
ie harm to occur to

Im

'lice hist

The Vicious Cycle of injury to Plaintiff By Defendant that Plaintiff is seeking
relief from can only be relieved by this Honorable court:
The Defendant unconstitutionally disallowed
ole that the plaintiff is^extending to

iding to
mt

siili

hail
it lead to the

Bie Counsel lor the

Defendant, Esq. Mrs. Barrett who represented the defendants in Plaintiff appeal to state court .simply
requested in early stage court hearing in1

to disallow any evidence from consideration or to be

allowed that was not in the original board Hearing in1
crucial evidence o]

[hading the state courts to not seeing
testimony to be presented in courts ,

stripping plaintiff from his fair due process under the US Laws

leading to the fatal court error that the

uled that 'few emails on record don't support

honorable state court of thel

" , again in error leading

what the plainti.fi
the court to believe again tha!

tearing was not justified, nor considering the tacts behind
'Ruling in error that the

the plaintiff

{ Tire ''sole determination as to factual issues is whether
substantial evidence exists in the agency record to support the agency's decision.*' Keniey, 6 Va. App. at
242. 369 S.E.2d at 7. "'[Sjsubslantial evidence' refers to such relevant evidence as a reasonable mind
might accept as adequate to support a conclusion. Under this standard . .. the court may reject the
agency's findings of fact only if, considering the record as a whole, a reasonable mind would necessarily
come to a different conclusion." Aegis Waste Solutions v. Concerned Taxpayers, 261 Va. 395, 404, 544
S.E.2d 660, 665 (2001) (quoting Virginia Real Estate Coimn'n v. Bias, 226 Va. 264. 269, 308 S.E.2d 123.
125 (1983) ("Bias")) (emphasis in original). }
if “the legal issues require a determination by the reviewing court whether an agency has . .. accorded
constitutional rights, failed to comply with statutory authority, or failed to observe required procedures,
less deference is required and the reviewing courts should not abdicate their judicial function and merely
rubber-stamp an agency determination.” App. 231, 243, 369 S.E.2d 1, 7-8 (1988) (emphasis added
Johnston-Willis, Ltd. v. Keniey, 6 Va.).
What will the Board lose if Plaintiff was offerei

hear tl

or allow

to retake SPEX again , or complete his CPEP educational Plan That the Board was claiming
did not successfully complete.
so what is the point of even trying to go to

hearing when the Other party can't

see Facts straight, and
waj

Moreover .Then The Board who is refusing even to allow Plaintiff just to retake medical licensing exam
SPEX exam again to rebut the allegation that His SPEX exam Pass mark was not enough for the Board,

which without the relief sought in plaintiff claim stated is crucial if he to have a fair chance of
reinstatement application process , as the Board stated in it 2017 as well as 2019 that The SPEX exam
Pass Mark was not convincing enough lor reinstatement,Plaintiff does not know what is the even benefit
of attempting to go another hearing in front of the Board without being allowed to retake the SPEX again
if it is the contingency condition that the Board is insisting to have a higher Pass Mark. Exhibit 20
Similarly ,On The same token , as the Medical Director of the CPEP had pointed out in 2018 to the
Board that Plaintiff , has successfully completed all requirements set in his educational plan, and is at the
stage where a limited license is needed to complete the Educational plan , hut the Board ruled the other
way that Plaintiff simply did not complete the CPEP plan successfully , So without the relief sought to
allow plaintiff to have a limited license to fully complete the CPEP plan that has been an issue brought up
twice already in

and then in

Board hearings.

Not Forgetting The Board not weighing Facts that favors Reinstatement:
-Full Government Medicare Reinstatement 2018 of
-Full Government of personnel reinstatement Of1

as A medical Provider.
as a Health Insurance Government

programs Medical provider, 2018
Hearing Judg<

tling in

tha<

lis

medically professionally competent.
Clearly ,as shown from the prior Boards history dealings with
gives a grim future on any hearing to occur

since 2017 and again in 2019
^sought if Plaintiff to have a fair

due process or any chance for a reinstatement.

Fourth: The Rooker-Feldman Doctorine does not apply :
Moreover ,The counsel is arguing now (hat plaintiff claim should be dismissed simply because lie can
appeal the Board decision to a state court arguing a complete misunderstanding if the Rooker-Feldman '
doctorin even applies as shown below :
The Rooker-Feldman doctrine derives its name from two U.S. Supreme Court cases. Rooker v.
Fidelity Trust Co., 263 U.S. 413 (1923) and District of Columbia Court of Appeals v. Feldman. 460
U.S. 462 (1983).

The Rooker-Feldman doctrine deprives federal district and bankruptcy courts of jurisdiction over suits
that are essentially appeals from state court, judgments. The policy is based on the idea that a litigant
should not be able to challenge state court orders in federal court as a means of relitigating matters that
already have been considered and decided. The Rooker-Feldman doctrine applies when four requirements
are met: (1) the federal plaintiff lost in state court, (2) the plaintiff complains of injuries caused by the
state court judgment, (3) that judgment issued before die federal suit was filed, and (4) the plaintiff invites
the district court to review and reject the state court judgment.

TEST OF THE SOURCE OF PLAINTIFF’S INJURY :
Plaintiff is pleading a federal constitutional claim with a violation of US laws against the defendant
seeking relief from in jury that originated by the defendant actions that can be reviewed under the laws
of the United states of America that is generally adjudicated and reviewed in The Federal Court :
In Evans v. Cordruy (6th Cir.. Case No. 09-3998) (PDF), the Sixth Circuit attempted to clarify the
scope of the Rooker-Feldman doctrine when it reversed a district court’s decision to dismiss a claim
regarding the constitutionality of Ohio’s “vexatious litigator” statute pursuant to Rooker-Feldman: Sixth
Circuit Attempts to Clarify the Rooker-Feldman Doctrine as It Reverses A District Court’s Ruling
Regarding the Constitutionality of Ohio’s “Vexatious Litigator” Statute
In an opinion written by Judge Griffin, the Sixth Circuit began by explaining that the RookerFeldman does not bar a district court from exercising subject matter jurisdiction simply because a
.party attempts to litigate in federal court a matter previously litigated in state court. Rather, it applies
only to the “narrow ground” of “cases brought by state-court losers complaining of injuries caused by
state-court judgments rendered before the district court proceedings commenced and in viting district court
rev iew and rejection of those judgments.” As the Sixth Circuit explained, in determining
whether Rooker-Feldman bars a claim, courts must look to the source of the injury that the plaintiff
alleges in the federal complaint. If the source ofthe plaintiffs injury is the state court judgment itself,
then the Rooker-Feldman doctrine bars the federal claim. On the other hand, if there is some other source
of injury, such as a third party’s actions, then the plaintiff asserts an independent claim.

2) Third Circuit Confirms Limits of the Rooker-Feldman Doctrine:
lit re Philadelphia .Entertainment & Dev. Partners, 17-1954, 2018 WL 358216 (3d Cir. Jan. 11.
2018). Depending on the context, reference to PEDP may refer to either the Third Circuit opinion or
the debtor-entity itself. On January 11, 2018, the Third Circuit issued a decision in re Philadelphia
Entertainment & Development Partners1 that limited the reach of the Rooker-Feldman doctrine as a
defense to bankruptcy avoidance actions. The court’s reasoning, however, has implications that go
well beyond the particular facts of the case and may limit the use of the Rooker-Feldman doctrine as
a threshold defense in federal court litigation more broadly, whether in bankruptcy cases or
otherwise.
The Rooker-Feldman doctrine deprives federal district and bankruptcy courts of jurisdiction over suits
that are essentially appeals from state court judgments. The policy is based on the idea that a litigant
should not be able to challenge state court orders in federal court as a means of relitigating matters that
already have been considered and decided. The Rooker-Feldman doctrine applies when four requirements
are met: (1) the federal plaintiff lost in state court, (2) the plaintiff complains of injuries caused by the
state court judgment, (3) that judgment issued before the federal suit was filed, and (4) the plaintiff invites
the district court to review and reject the state court judgment,'As Asserted after a careful reading of the
Various Supreme Court precedents support that it is designed primarily to thwart collateral attacks on the
state court judgment in lower federal courts only when a federal plaintiff alleges the state court is the
source of plaintiffs injury, as when this occurs the federal suit becomes in general a collateral attack
seeking to undo what the [state] court did, citing supported in Kamilewi.cz v.Bank of Boston Corp. 100
F3d 1348 (7th Cir1996),the pivotal inquiry is "whether the federal plaintiff seeks to set aside, a state court
judgment or whether he is in presenting an independent claim against a third party .person or entity.
Skinner v. Switzer ,562 U.S. 521 (2011) Holding that Rooker-Feldman did not bar prisoner's § 1983
claim challenging constitutionality of state post-conviction DNA testing procedures because he was not
challengingan adverse state decision

PJ v. Wagner 603 F.3d 1182 (10th Cir. 2010) :In Wagner, the Tenth Circuit laid out the following test
for invoking Rooker-Feldman: Would the federal claims be identical had there been no adverse state court
judgment? If so, the claims are extricable from any state court orders and Rooker-Feldman is not
applicable. If not, Rooker-Feldman bars jurisdiction over those claims.
Davis v. Bayless 70 F.3d 367 (5th Cir. 1995) ..Stating that Rooker-Feldman does not "bar an action in
federal court when that same action would be allowed in the state court of the rendering state"
The defendants' argument that dismissal must be affirmed on the basis of Rooker- Feldman is also
erroneous.). However, our Circuit has not allowed the Rooker- Feldman doctrine to bar an action in
federal court when that same action would be allowed in the state court of the rendering state. Gauthier v.
Continental Diving $erv, Inc., 831 F.2d 559, 561 (5th Cir, 1987) (interpreting Rooker- Feldman in a
manner consistent with the requirements of the full faith and credit requirement).
Babb v. Capital source, Inc. 588 Fed. Appx. 66 (2d Cir. 2015) Noting that Rooker-Feldman does not
bar well-pleaded federal claims seeking damages for fraud, although the doctrine otherwise limits federal
court review of state court rulings
On de novo review of the district court’s application of Rooker-Feldman, see Hoblock v. Albany
County. Bd. of Elections, 422 F.3d 77, 83 (2d Cir. 2005), we identify error in light of our most recent
controlling precedent, see Vossbrinck v. Accredited Home Lenders, Inc., — F.3d -—, No. 12-3647-cv,
2014 WL 6863669 (2d Cir. Dec. 8, 2014). Vossbrinck makes clear that plaintiffs' suit is not barred
by Rooker-Feldman because the SAC seeks damages for injuries suffered as a result of defendants'
alleged fraud and does not attempt to reverse or undo a state court judgment. See id. at *3. We therefore
reverse the district court's holding that it lacked jurisdiction.

Rooker-Feldman Doctorine limitations
i) Was The Slate court litigating an already federally decided issue (Relitigation
Exception). Supreme Court decision in ChiK Kam Choo v. Exxon Mobile 486 U.S
140 (1988). We observed in Exxon that the Rooker - Feldman doctrine had been

r
construed by some federal courts "to extend far beyond the contours

the Rooker and Feldman cases."

Id., at 283, 125 S.C.t. 1517. Emphasizing "the narrow ground" occupied by the doctrine, id., at 284. 125
S.Ct. 1517, we clarified in Exxon that Rooker - Feldman "is confined to cases of the kind from which (he
doctrine acquired its name: cases brought by state-court losers ... inviting district court review and
rejection of {the state court's) judgments." .Given the Fact That Plaintiff matter has already been decided
already in a Federal Couri
" Honorable Judge;

is quoted Plaintiff car

....", Then it would be unconstitutional for the defendant to litigate that this a state court
jurisdictional mailer or that this case should be dismissed by applying in error a doctorine (hat actually
does not apply from the beginning reviewing the originality of the Federal order.
, rendering any state decision out of jurisdiction in this matter and limiting any application
of the Rooker -Feldman doctorine to a state court that even did not have the jurisdiction to review .or
adjudicate an already decided federal matter

Many Courts have Supported above as decided in : (Region Mank of La v. Rivet 224 F3d 483,488
(5th Cir.2000) Citing also in Paul Mercury Ins. Co. v. Williamson 224 F3d 425.448 (5th Cir. 2(X)0) as
deciding" that it was designed to permit a Federal Court to prevent state litigation of an issue that
previously was presented to any decided by federal court", also shown in .MLE Realty Association v.
Handler ,192 F3d 259,261 -262(2nd Cir)1999 quoting "the Litigation Exception is narrower than the
doctorine of resjudicate" ), also as decided in Moralo Group Inc. v. Matagorda Ventures Inc. No 98
ci v.6223 (LMM),2(X)0 WL 1154317,at *1 ( S.D.N.Y. Aug.14,2000) quoting that "an essential prerequisite
for applying for the relitigation exception is that the claims or issues which the federal injunction insulate
from litigation in state proceeding actually have been decided by the federal court", also cited in Blue
Cross v. SmithKline Beecham Clinical Labs.,Inc.108 F.supp.2nd 130,135-136 (D. Conn. 2000).

ii) Is there an extent to succeed had their be no state court wrongdoing: Honorable

Justice Marshall explanation in the Pennzoit Co v. Texaco 481 U.S 1,25( 1987):" A
Federal claim was inextricably intertwined when it could succeed only to the extent that the
state court wrongly decided the issue before it or federal relief can only be predicated Upon
a conviction that the state court was wrong".
In re Sun Valley Foods Co. 801 F.2d 186 (6th Cir. 1986) In Sun Valley Foods, the Sixth Circuit
ruled that there could be an exception to the feboker-Feldman jurisdictional bar where tjie state coui t
judgment is alleged to have been procured through fraud, deception, accident, or mistake.'’

The Court Of Appeals' Decision.
Pet.App.1-24. The Fourth Circuit held that it was required to "[a]dher[e] to the principles of equity,
comity, and federalism," and concluded as a matter of law that The Court acknowledged that (t]His
action falls within the terms of 42 U.S.C. § 1983," and that "Instead, the Fourth Circuit grounded its
rationale for abstaining in "a deeper principle of comity," namely, "the assumption that state courts are
co-equal to the federal courts and are fully capable of respecting and protecting Petitioner's
Amendment rights." as if Petitioner could have adjudicated its federal constitutional claims in state
court, the Court held, the principles underlying Younger and its progeny required it to do so. The chief
legal authorities on which the Fourth Circuit relied to require abstention in this context were the
principles of equity, comity, and federalism." . The primary case that led the Court to this result was not
a decision of this Court, but rather other court ("Initial adjudication of this dispute in the federal court
would run contrary to the considerations of equity, comity, and federalism). The Fourth Circuit s
decision also conflicts with a decision from the Second Circuit. The Second Circuit has held that courts
should not abstain from cases that raise First Amendment right of access claims. See Hartford Courant
Co. v. Pellegrino, 380 F,3d 83 (2d Cir. 2004) ("Hartford Courant").

REASONS FOR GRANTING THE PETITION
The decision below acknowledges and creates a circuit split on a question of exceptional importance
regarding whether certain constitutional claims may be heard in federal court. The Fourth Circuit's
decision broke with decisions of the Second and Ninth Circuits by holding that federaUourtsshould^
abstain from hearing Federal Amendment claims against obstruction of Justice,
hat is needed to protect Fair Due process and rights to apply for his livelihood

The decision to abstain in this context is wrong and—because it closes the federal courthouse doors to
important constitutional claims—merits immediate review. The Seventh Circuit acknowledged, in part,
the clean split of authority its decision created. On facts "nearly identical" to those presented below, the
Ninth Circuit reached precisely the opposite conclusion on the question whether federal courts should
abstain from hearing constitutional amendment claims of this type. See Pet.App.22 (acknowledging the
split with Courthouse News Serv. v. Planet, 750 F.3d 776 (9th Cir. 2014)). In both the Seventh Circuit and
Ninth Circuit cases, CNS sought to continue timely access to newly-filed civil complaints, but faced

resistance from local court clerks who did not want to provide that access. In both cases, CNS filed suit
seeking declaratory and injunctive relief under the First Amendment. In both cases, the appellate court
evaluated whether Younger and its progeny required federal courts to abstain from hearing CNS's claims
on the basis that injunctive relief would be too intrusive. Now, such claims may be brought in the Ninth
Circuit but not in the Seventh Circuit, The split runs even deeper. When the Ninth Circuit decided in
Planet that federal courts need not abstain from claims of this type, it expressly "joinjedj the Second
Circuit in reaching this conclusion." See Planet, 750 F.3d at 787 (citing Hartford Courant Co. v. Pellegrino,
380 F.3d 83,100 (2d Cir. 2004)). The Fourth Circuit's decision thus puts it against decisions from two
other courts of appeals. Without a doubt, the question whether federal courthouse doors are closed to
Amendment claims of this type is exceptionally important. This Honorable Court has repeatedly
emphasized the virtually unflagging obligation of federal courts to hear and decide cases when they
have jurisdiction to do so. Exercising that jurisdiction is nowhere more important than in deciding the
scope and breadth of fundamental Amendment rights. The decision below wrongly evinces a crabbed
view of the scope of federal jurisdiction and closes those courthouse doors to important constitutional
claims. The basis of the Fourth Circuit's decision was a standard less deference to "comity" and
"respect" for the ability of state courts to hear claims of this type even when no such state court case is
pending. But exercising federal jurisdiction is an obligation; not a choice. Worse still, this standard less
rationale could be read to preclude the adjudication in federal court of other important constitutional
interests. If Amendment claims cannot be adjudicated in federal court simply because they touch on
state court interests and they could be brought in state court, then nothing stops federal courts in the
Fourth Circuit from refusing to hear other important cases over which federal cou rts unquestionably
have jurisdiction—cases raising Fourth Amendment challenges to the actions of state judicial security
officers, cases alleging employment discrimination in state court hiring practices, establishment clause
challenges to displays at state courthouses, and cases raising other important interests that touch on
the state courts.

I. The Courts of Appeals Are Divided Over Whether
Federal Courts Should Abstain From Hearing
Constitutional Amendment Claims Of This Type.
The decision below creates a split of authority with prior decisions from the Ninth and Second Circuits.
Before the decision below, every court of appeals to address the question had held that federal courts
should not abstain from hearing constitutional challenges seeking access to public court documents. The
Seventh Circuit's decision cannot be reconciled with these other cases.

A. The Decision Below Conflicts With Decisions From The Second And Ninth
Circuits.
1. As the Seventh Circuit acknowledged, its decision created a square split of authority with the
Ninth Circuit. See Pet.App.22,23 n.6. Given the overlap in parties, facts, and legal issues, there is no way
to reconcile the split the decision below creates. In Planet, CNS filed suit for declaratory and injunctive
relief against the Clerk of Ventura County Superior Court, who was "withholding complaints until after
they had been fully processed" and, as a result, made "review of new civil complaints less timely and
more difficu lt." 750 F.3d at 781. As a result of the clerk's withholding of new complaints, when they

were finally available to the press they were significantly less newsworthy. The District Court granted
the clerk's motion to dismiss the case on the basis of O'Shea and Pullman abstention. See id. at 782
{citing Railroad Comm'n v. Pullman Co., 312 U.S. 496 (1941)). But the Ninth Circuit reversed, squarely
rebutting the abstention holding reached by the trial court there. The Planet decision noted that
"Pullman abstention is an extraordinary and narrow exception to the duty of a district court to
adjudicate a controversy." Id. at 783 (internal quotation marks omitted). And while it exists to ensure
"the rightful independence of the state governments and for the smooth working of the federal
judiciary," it "is generally inappropriate when First Amendment rights are at stake." Id. at 784 (citation
omitted). Given the significance of the First Amendment rights at stake, the court in Planet held that
Pullman abstention was inappropriate. Id. at 786-87. The Ninth Circuit then carefully walked through
other prior abstention cases to conclude abstention was not warranted. In particular, with respect to
O'Shea, the court concluded that O'Shea stands for the "general proposition that [courts] should be very
reluctant to grant relief that would entail heavy federal interference in such sensitive state activities as
administration of the judicial system." Id. at 789-90 (internal quotation marks omitted). In other words,
"O'Shea compels abstention where the plaintiff seeks an 'ongoing federal audiT of the state judiciary,
whether in criminal proceedings or in other respects." Id. at 790 (citation omitted). Abstention was not
warranted, the court in Planet held, because "[a]n injunction requiring the Ventura County Superior
Court to provide same-day access to filed unlimited civil complaints poses little risk of an 'ongoing
federal audit' or 'a major continuing intrusion of the equitable power of the federal courts into the daily
conduct of state ... proceedings.'" Id. at 792 (quoting O'Shea v. Littleton, 414 U.S. 488, 500, 502
(1974)). That was so because an injunction would amount to a "bright-line finding" and not "ongoing
monitoring of the substance of state proceedings." Id. at 791. The federal courts could "provide the
requested relief" without an "intensive, context-specific legal inquiry." 15 Id. Moreover, the state court
clerk "has available a variety of simple measures to comply with an injunction granting CNS all or part of
the relief requested!.]" Id. And, as a matter of fact, when an injunction was issued on remand after the
Planet decision, the clerk there adopted simple measures that consistently provided timely access
without raising the specter of excessive interference in the state judiciary. Planet stands for the
proposition that federal courts should not abstain from hearing constitutional challenges seeking to
adjudicate questions about access to state court records. Thus, the Planet court held, these cases can
and should be heard in federal court, and federal courts may issue injunctive relief to further those
meritorious claims without micro-managing state court administrative procedures. There is no way to
square the Ninth Circuit's holding in Planet with the Seventh Circuit's decision below. The decision
below relies on the "general principles upon which all of the abstention doctrines are based" to
conclude that "(t)he level of intrusion CNS seeks from the federal court into the state court's operations
is simply too high, at least before the state courts have had a chance to consider the constitutional
issue." Pet.App.21. The rationale for the Seventh Circuit's decision was that "it was not appropriate for
the federal courts, in the face of these principles of equity, comity, and federalism, to undertake the
requested supervision of state court operations." Pet.App,20.16 The Ninth Circuit reached the opposite
conclusion in the face of a nearly identical request for injunctive relief. In Planet, the plaintiff sought "an
injunction prohibiting Planet from continuing his policies resulting in delayed access to new unlimited
jurisdiction civil complaints" and denying "timely access to new civil unlimited jurisdiction complaints on
the same day they are filed, except as deemed permissible following the appropriate case-by-case
adjudication." See Planet, 750 F.3d at 782 (internal quotation marks omitted). That language maps
directly onto the relief requested (and granted) in this case, which required the Clerk here "to
implement a system that will provide access to newly e-filed civil complaints contemporaneously with
their receipt by her office." See Pet.App.43. tn short—faced with the same legal question, the
same parties, and the same requested relief—the Seventh Circuit held that federal courts

should abstain from exercising jurisdiction to hear constitutional challenges to a state's
decision to withhold public court filings. In precisely the same context, the Ninth Circuit
previously came to the opposite conclusion.

2. The Ninth Circuit's Planet decision expressly rested on a prior decision of the
Second Circuit:
This also has addressed this question. In Planet, the Ninth Circuit acknowledged that its decision
aligned with Hartford Courant, 380 F.3d at 100. See Planet, 750 F.3d at 787 ("We join the Second Circuit
in reaching this conclusion."). 17 In Hartford Courant, the Second Circuit was asked "to decide whether
the public and press have a qualified First Amendment right to inspect docket sheets and, if so, the
appropriate remedy for its violation by state courts." Hartford Courant, 380 F.3d at 85. There,
Connecticut state court clerks routinely sealed entire docket sheets, pursuant to a policy outlined by the
Civil Court manager, that resulted in thousands of cases being sealed, Id. at 87. The Hartford Courant, a
local newspaper, filed suit pursuant to, inter alia, 42 U.S.C. § 1983, seeking injunctive relief and claiming
that a policy which resulted in the widespread sealing of court documents violated the press's Fi rst
Amendment right to access judicial proceedings and documents. Id. at 85, 89. As described by the
Second Circuit, "the gravamen of the federal plaintiffs' complaint" was a challenge to "the procedures
set forth in the (Civil Court manager's policy memo] or the unauthorized actions of the court
administrators" in sealing otherwise public court docket sheets. Id. at 101. In response, the
defendants—the Chief Court Administrator and the Chief Justice of the Connecticut Supreme Court in
their administrative capacities—moved to dismiss by claiming that the federal court should abstain
under, inter alia, Pullman and Burford v. Sun Oil Co., 319 U.S. 315 (1943). Id. at 100-02. After the
District Court granted the motion to dismiss, the Second Circuit reversed. The Second Circuit held that
there was no reason to abstain from adjudicating the constitutional question. See id. at 86 ("{A]fter
reviewing the abstention doctrines that the defendants have raised, we hold that none applies in this
case."). In so holding, the Second Circuit rejected the argument that a challenge to the Connecticut
courts' procedures for sealing court documents affected "a central sovereign function" over which state
courts had "an inherent power," See 8r. of Defs.-Ap pel lees, No. 03-9141, 2004 WL 5822413, at *39 (2d
Cir. Feb, 24,2004). Indeed, the appellees in Hartford Courant expressly argued that the sealing
procedures "pose state and federal constitutional issues that Connecticut courts ought first to have the
opportunity to review." Id. at *33. The Second Circuit disagreed. Hartford Courant therefore squarely
conflicts with the Seventh Circuit's decision below that the underlying "temporal access dispute with a
state court clerk should be heard first in the state courts." Pet.App.23. This conflict is rendered even
more stark by the motivation for the decision of each court. The Seventh Circuit's decision, grounded in
"comity," was motivated by a special concern that federal courts not interfere with state court clerks'
oversight of their own procedures for public access to court filings. See Pet.App.21- 22 ("Illinois courts
are best positioned to interpret their own orders, which are at the center of this case, and to craft an
informed and proper balance between the state courts' legitimate institutional needs and the public's
and the media's substantial First Amendment interest in timely access to court filings."). By contrast,
the Second Circuit held that "the weight of the First Amendment issues involved counsels against
abstaining." Hartford Courant, 380 F.3d at 100, There is no way to reconcile these competing decisions.
Nor can the decision below be distinguished on the basis that the filing procedures at issue are in a time
of transition (from paper to electronic filing), which was another reason offered.by the Seventh Circuit
to abstain. See Pet.App,22 ("It is particularly appropriate for the federal courts to step back in the first
instance as the state courts continue to transition to electronic filing and, like many courts around the
country, are working through the associated implementation challenges and resource limitations. The

claims here are not suitable for resolution in federal court at this time.")- The suggestion that the move
from paper to electronic filing counsels in favor of abstention is wrong for two reasons. First, the notion
that a policy challenged as unconstitutional is in flux is not a recognized basis for abstention. Here, the
transition from paper to electronic filing is a simple shift in the form a document is delivered, not a
substantive change in the filing that should affect the First Amendment rights that attach to it. Second,
this rationale, such as it is, highlights a further conflict with the Second Circuit. That is because the
clerk's policy memo at the heart of the Hartford Courant case was itself no longer the operative
document governing the sealing of court records when that case was adjudicated. Rather, a new policy
had subsequently been enacted that made court documents available on a timely basis (but did not
apply retroactively), See Hartford Courant, 380 F.3d at 87. Thus, the policy at issue in that case, like the
underlying policy here, was in flux and facing a time of transition. Yet the Second Circuit, unlike the
Seventh Circuit, declined to abstain from hearing challenges to the court-sealing policy on the
basis that the state should take a first crack at evaluating the new change.

II. The Decision Below Is Wrong.
The Fourth Circuit's decision is wrong in at least two respects. First, it runs directly counter to this
Court's clear direction that Younger abstention applies only in limited and clearly defined circumstances.
Second, the decision below upends the presumption that federal courts adjudicate claims over which
they have jurisdiction.

A. The Decision Below Expands The Circumstances In Which A Federal Court
Should Abstain Beyond The Narrow Exceptions This Court Has Articulated.
This Court has carved out narrow categories of cases in which federal courts have jurisdiction to
review claims brought before them but should nonetheless abstain from hearing such cases. The
doctrine of abstention "is an extraordinary and narrow exception" to the general obligation of federal
courts to "adjudicate . ,. controversies] properly before [them]," County of Allegheny v. Frank lyiashuda
Co., 360 U.S. 185, 21188-89 (1959) (FRANKFURTER, J„ concurring). Abstention is therefore justified
"only in the exceptional circumstances where the order to the parties to repair to the state court would
clearly serve an important countervailing interest." Id.; see also Colorado River Water Conservation Oist.
v. United States, 424 U.S..800, 813 (1976) ("Abstention from the exercise of federal jurisdiction is the
exception, not the rule."). Younger abstention, which traces its roots to Younger v. Harris, 401 U.S. 37
(1971), forbids federal courts from enjoining pending state criminal proceedings. Since its inception,
federal courts have struggled to understand the scope of Younger's applicability. That confusion is
nowhere more obvious than in the decision below. But recently, this Court has made clear that Younger
abstention is "confined" to "three exceptional circumstances." See Sprint Commc'ns, Inc. v. Jacobs, 571
U.S. 69, 78 (2013). Federal courts may abstain under Younger only to prevent them from enjoining: (1)
"ongoing state criminal prosecutions;" (2) "certain civil enforcement proceedings;" and (3) "pending civil
proceedings involving certain orders uniquely in furtherance of the state courts' ability to perform their
judicial functions." Id. (internal quotation marks and alteration omitted). In Sprint, the Court made clear
that these narrow exceptions constituted the entire universe of Younger, See id, ("We have not applied
Younger outside these three 'exceptional' categories, and today hold, in accord with NOPSI, that they

define Younger's scope,"); see also New Orleans Pub, Serv., Inc. v. Council of City of New Orleans, 491
U.S. 350, 369-70 (1989) ("NOPSI") ("While (the Court has] expanded Younger beyond criminal
proceedings, and even beyond proceedings in courts, (it has] never extended it to proceedings that are
not 'judicial in nature.'"), The Court has also applied Younger abstention to preclude courts from
hearing cases where there is no concurrent pending state court proceeding, in order to prevent federal
courts from engaging in an "ongoing federal audit of state (court] proceedings which would indirectly
accomplish the kind of interference that Younger v. Harris ... and related cases sought to prevent."
O'Shea, 414 U.S. at 500 (federal courts should abstain from enjoining future conduct); Rizzo v. Goode,
423 U.S. 362, 380 (1976) (broadly applying Younger principles to limit federal court review of local
executive branch actions). Although O'Shea and Rizzo are based on Younger—and the decision below
plainly contemplates they are direct extensions of Younger—the Court has not had occasion to make
clear that the limits of Younger, as expressed in Sprint, also apply to O'Shea and Rizzo. This case makes
clear why the Court should do so now. Assuming O'Shea and Rizzo are limited by the scope of Younger
(on which they rely), then the only argument for abstention in this case would be that the contemplated
injunction involves "certain orders uniquely in furtherance of the state courts' ability to perform their
judicial functions." Sprint Commc'ns, 571 U.S. at 78 (interna! quotation marks omitted). No such
problem exists here: the contemplated injunction would apply to an established policy and enjoining
that policy would involve simple compliance with a simple, one-time injunction, not an "ongoing federal
audit of state criminal proceedings," O'Shea, 414 U.S. at 500. The terms of the District Court's order
make this clear, because the order requires simply that the Clerk craft a new, constitutionally compliant
policy that ensures timely access to new complaints, while leaving the details related to compliance up
to the Clerk, herself. Rather than requiring the Clerk to make one precise change or another, the order
allows the Clerk broad authority to craft a compliant policy. See Pet.App,43 ("Brown is given thirty days .
.. to implement a system that will provide access[.]"). If Younger itself is narrowly limited, then the cases
expanding its scope should likewise be so confined, Either O'Shea and Rizzo are extensions of Younger—
as the decision below believed them to be—or they are not. If they are extensions of Younger, then the
limitations of Younger that this Court has carefully staked out apply. If they are not extensions of
Younger, and instead fall into some other, nebulous line of cases about the scope of federal courts'
equity power to issue injunctive relief against state actors, then that too is patently unclear to lower
federal courts and that question merits this Court's intervention. Further—and however these cases are
described—the decision below does not grapple seriously with why the issuance of an injunction here
would lead to the result the opinion fears, unnecessary interference with state courts, The decision

below also ignores that the District Court held no such interference would occur, and that the Clerk
herself put forth no evidence or argument at all—aside from the same barebones assertion on which
the Seventh Circuit relied—why an injunction would cause excessive interference. The decision thus guts
the careful line-drawing this Court has done to delineate the narrow scope of abstention's reach. "(I]t
was never a doctrine of equity that a federal court should exercise its judicial discretion to dismiss a suit
merely because a State court could entertain it." Colorado River, 424 U.S- at 813-14 (quoting Alabama
Pub. Serv. Comm'n v. Southern Ry. Co., 341 U.S. 341, 361 (1951)). Yet that is precisely what the
Fourth Circuit did here: abstaining from resolving an important constitutional question not on

the basis of any clear mandate from this Court to abstain, but rather on broad and standard
less equitable principles.

B. The Decision Below Turns On Its Head The Presumption That
Courts Must Exercise Jurisdiction When They Have It.
Chief Justice Marshall famously articulated the presumption that federal courts hear cases over which
they otherwise have jurisdiction in Cohens v. Virginia, stating that federal courts "have no more right to
decline the exercise of jurisdiction which is given, than to usurp that which is not given." 19 U.S. 264,
404 (1821). To do otherwise, the Court held, "would be treason to the constitution. Questions may
occur which we would gladly avoid; but we cannot avoid them." Id. Since then, this Court has reiterated
that, where jurisdiction lies, "a federal court's 'obligation' to hear and decide a case is 'virtually
unflagging.' " Sprint Commc'ns, 571 U.S. at 77 (quoting Colorado River, 424 U.S. at 817). The exceptions
to this general rule, as explained above, are "extraordinary and narrow." Colorado River, 424 U.S. at 813
(quoting County of Allegheny, 360 U.S. at 188-89). Thus, "abstention from the exercise of federal
jurisdiction is the exception, not the rule." Id. The rationale the Fourth Circuit applied to justify
abstention in this case could apply to any challenge to state court action. The implication of the decision
below is that abstention is warranted when questions are uncomfortable and interference with state
court operations is possible, regardless of whether excessive interference would actually result from the
entry of an injunction. Rather than presuming the federal courts remain open to hear constitutional
challenges—even those raising questions the court might "gladly avoid"—the decision below jumps to
the conclusion that the court should not hear a case that could instead be litigated in state court. The
decision below evinces no concern for the obligation of federal courts to hear those cases that they can,
and instead voices a compulsive hesitancy to wade into a constitutional controversy simply because it
involves a sister state court. The Fouth Circuit's rationale relies heavily—almost exclusively—on the
"abstention principles" of "equity, comity, and federalism," see Pet.App.2Q, but wholly ignores that
these principles operate only to serve "narrow exceptions," see supra at 19-23, and do so within the
overarching presumption that federal constitutional claims should be litigated in federal court whenever
possible. The Fourth Circuit's logic simply cannot be squared with the Court's abstention cases. It is not
enough that a complaint filed in federal court implicates "federalism and comity" concerns: All § 1983
actions challenging the conduct of state officials, by their very nature, do. See, e.g., Allen v. McCurry,
449 U.S. 90,101 (1980) (Section 1983 ensures that "the federal courts could step in where the state
courts were unable or unwilling to protect federal rights."); McNeese v, Board of Educ. for Cmty. Unit
Sch. Gist. 187, Cahokia, III., 373 U.S. 668, 672 (1963) (It would "defeat (the) purposes" of 42 U.S.C. §
1983 "if (the Court] held that assertion of a federal claim in a federal court must await an attempt to
vindicate the same claim in a state court."). Nor is it dispositive thatthe official alleged to have violated
the First Amendment works in the state judiciary. See, e.g., Glassroth v. Roy Moore, 229 F. Supp. 2d
1290,1293 (M.D. Ala. 2002) ("Based on the evidence presented during a week-long trial and for the
reasons that follow, this court holds that the evidence is overwhelming and the law is clear that the
Chief Justice [of the Alabama Supreme Court] violated the Establishment Clause."). The decision below,
by contrast, would broadly require abstention whenever a federal constitutional challenge touches a

state court judicial function. "Such a broad abstention requirement would make a mockery of the rule
that only exceptional circumstances justify a federal court's refusal to decide a case in deference to the
States." NOPSI, 491 U.S. at 368. Worse still, such an approach would close the federal courthouse doors
to the litigants who may most need a neutral federal forum: those seeking to challenge the practices
and procedures of state courts.

III. The Question Presented is Important And Should Be
Decided In This Case.
The question presented in this case is important and merits the Court's immediate review. The split is
clear, the issue important, and the question unlikely to be resolved through further percolation.
1. First, the question presented is important because it goes to the heart of the federal courts’ power to
hear and decide cases. Whether constitutional and federal Amendment claims against state agency can
and should be heard in federal court—and whether injunctive relief is available to remedy alleged
constitutional harms— is extraordinarily important. When the Courts of Appeals split on a question
touching questions of federal jurisdiction, only this Honorable Court can resolve the conflict. Whether
and when federal claims may be brought in federal court is a question of the highest order, and
improperly preventing these claims from being adjudicated in federal court compounds the underlying
harm the lawsuits seek to redress. Review of this question is important now because the split of
authority that the decision below creates cannot be reconciled and so will not benefit from further
development. The Fourth Circuit's erroneous decision below may well spread to other jurisdictions,
further blurring the boundaries of abstention, which will harm, not help, this Court's eventual review of
it. There is no way to reconcile the Fourth Circuit's decision with the prior decisions of the Ninth and
Second Circuits. Federal courts are either open to hearing claims of this type, or they are not. The split
may become deeper—as other courts of appeals weigh into evaluate this question overtime—but the
issue is not likely to become clearer. Delaying review only ensures that the doors of the federal courts
will remain open in some places, but shuttered in others. This question is ripe for review now and, given
its importance, should be evaluated by this Court sooner rather than later. Indeed, the Seventh Circuit
itself recognized the importance of this decision to other courts. The decision below transparently notes
that "no doubt CNS would attempt to use a different decision in this case to force the hand of other
state courts” to provide timely access to court filings. See Pet.App.44. The court opined that it "would
likely lead to subsequent litigation in the federal courts" which, the Seventh Circuit claims, it "wantfed]
to avoid." Id. But, of course, the inverse of this statement is also true: The Seventh Circuit's decision will
"no doubt" be used by state court in some of the thousands of other jurisdictions around the country to
limit press access to public filings. The only difference now is that those actions will be protected from
any review by a neutral federal court under the cloak of the decision below. Worse stiil, the Seventh
Circuit's rationale could be used as a basis for abstention in the context of other federal claims. There is
nothing unique about the Seventh Circuit’s rationale that limits it only to claims against state court
clerks, or to First Amendment claims seeking access to state court documents. The principles of "equity,
comity, and federalism" apply with equal force to federal suits that would seek to litigate Fourth

Amendment claims (e.g., against court security officers) or employment discrimination claims (e.g.,
against court administrative officers), or establishment clause claims {e.g,, against state Supreme Court
Justices) to take just three examples. The federal courthouse doors should not be closed to such suits,
On the contrary, where state actors are alleged to violate federal constitutional rights or federal
statutory privileges, federal courts should hear those claims.
2. Second, while the underlying merits of the federal Amendment claim are not at issue in this
petition—because abstention does not rise or fall on the merits of the underlying claim—the fact that
this case raises federal Amendment questions magnifies its importance. Although the Courts of Appeals
may disagree on the scope of the Amendment right at issue, they agree that the right of the press to
access public court documents is protected by the constitution. Planet, 750 F,3d at 785 ("The Supreme
Court has repeatedly held that access to public proceedings and records is an indispensable predicate to
free expression about the workings of government."); Hartford Courant, 380 F.3d at 91 ("fTJhe public
possess a qualified First Amendment right to inspect docket sheets, which provide an index to the
records of judicial proceedings."); Pet.App.il ("fTJhe federal courts of appeals have widely agreed that
the First Amendment right of access extends to civil proceedings and associated records and
documents."). The appellate courts' concern in protecting the press's right to access public court
documents flows directly from the decisions of this Court, See, e.g., Richmond Newspapers, Inc. v.
Virginia, 448 U.S. 555, 576 (1980) ("fTJhe First Amendment guarantees of speech and press, standing
alone, prohibit government from summarily closing courtroom doors which had long been open to the
public at the time that Amendment was adopted."); Globe Newspaper Co. v. Superior Court for Cty. of
Norfolk, 457 U.S. 596, 604 (1982) ("Underlying the First Amendment right of access to criminal trials is
the common understanding that 'a major purpose of that Amendment was to protect the free
discussion of governmental affairs), j'") (quoting Mills v. Alabama, 384U.S. 214, 218 (1966)); Nixon v.
Warner Commc'ns, Inc,, 435 U.S, 589, 597 (1978) ("fTJhe courts of this country recognize a general right
to inspect and copy public records and documents, including judicial records and documents."). Federal
courts can and should continue to adjudicate the scope and breadth of that right particularly where, as
here, declining to exercise jurisdiction eviscerates the very constitutional right that CNS seeks to protect.
CNS seeks to litigate its right to timely access to court documents. By abstaining from hearing these
claims, federal courts ensure that CNS cannot exercise that right—and fulfill its duties as a member of
the press to provide news coverage—in a timely way. When a First Amendment claim seeks access to
information for purposes of reporting on newsworthy events in a timely way, denial of that access
compounds the constitutional harm. For that reason, Justice Blackmun, granting a stay of a lower court
order prohibiting the news media from reporting on a pending case, stated that "each passing day may
constitute a separate and cognizable infringement of the First Amendment." Nebraska Press Ass'n v.
Stuart, 423 U.S. 1327,1329 (1975) (BLACKMUN, J., in chambers). When the full Court ultimately
reviewed the merits of the First Amendment claim raised in Stuart, it underscored the point: "If it can be
said that a threat of criminal or civil sanctions after publication 'chills' speech, prior restraint 'freezes' it
at least for the time." Nebraska Press Ass'n v. Stuart, 427 U.S. 539, 559 (1976). The Ninth Circuit in
Planet echoed this "concern that a delay in litigation will itself chill speech." Planet, 32 750 F.3d at 787.
The Court noted that "even though it is not subject to prosecution, CNS will be unable to access judicial
records and report on newsworthy proceedings during 'the delay that comes from abstention itself.

t /»

Planet, 750 F.3d at 788 (citation and alteration omitted). Therefore protection of
Constitutional rights including the rights of Fair Due Process. Right of not to
obstruct justice. liberty and freedom is of at least equal importance that
demand immediate review to keep open federal courthouse doors to federal
Amendment claims of this type.
♦ ■

CONCLUSION
Respectfully .Petitioner asks for The Honorable Court to grant this petition for certiorari’
As This is Petitioner Last arid Only Hope For Justice.
Respectfully submitted.

REQUEST FOR ORAL ARGUMENT
Humbly. Plaintiff ,Pro Se . is requesting an oral Argument to argue his case in Person!
protecting1

CERTIFICATE OF COMPLIANCE
This is to certify that above appeal filing does comply with The Court Filing Rules :
Writ For Certificate of Certiorari pages an^^ges out of Total pages

iagc that includes cover,

contents, cases t itling,. request for oral argument certificate of compliance, and certificate of Service

Certificate Of Service
Copy of above appeal has been mailed via Secured US mail carrier to DHP7 Virginia Board Of
Medicine counsel on record’s address.

'’Vr

*

about:blank

No.

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER

(Your Name)
VS.
_ — RESPONDENT(S)

-f.

PROOF OF SERVICE
BP, do swear or declare that on this date,
Hp. as required by Supreme Court Rule 29 I have
OR LEAVE TO PROCEED IN FORMA PAUPERIS
served the enclosed MOTIO
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are. as follows:

Vwqivti/^ Board?. Of P'leducwfc...__
for Re.c povtfeyd' •
I declare under penalty ofjerjury that the foregoing is true and correct.
Executed on
(Signature)

25 of 25

12/29/20, 13:54

